September 29, 2009

TOM A. SAMRA
VICE PRESIDENT, FACILITIES

SUBJECT: Audit Report – Postal Service Lease Process
         (Report Number SA-AR-09-006)

This report presents the results of our audit of the U.S. Postal Service’s Lease Process
(Project Number 09YG005SA000). Our objective was to determine whether current
lease processes and procedures are economically beneficial to the Postal Service.1 We
conducted this self-initiated audit based on the operational and financial risks
associated with leases. See Appendix A for additional information about this audit.

Conclusion

Our audit of lease processes and procedures found that the Postal Service could
enhance their procedures to ensure leases are more economically beneficial to the
Postal Service. We found that responsible Facilities personnel were adhering to
established policies and procedures; however, the Facilities Service Offices (FSOs)
could improve internal controls with regard to the following:

       Termination Language
       Cost and Income Analyses
       Negotiating with National Lessors
       Leases under $25,000

We plan to do additional audit work to quantify the impact of these issues to the Postal
Service.

Termination Language

Sixty-nine percent of the leases we reviewed did not include termination language.
According to Facilities personnel, FSOs are beginning to require termination language
in leases, but there is no formal policy. When the Postal Service excludes termination
language from leases, it is locked into long-term lease agreements that prohibit it from


1
  The original objective included determining whether the Postal Service was paying above market lease
rates. We separated that phase of the audit and will complete it in future audit work.
Postal Service Lease Process                                                   SA-AR-09-006



effectively managing its real estate needs and from responding to economic downturns
or opportunities for optimization. See Appendix B for our detailed analysis of this topic.

We recommend the Vice President, Facilities:

1. Develop and implement policies and procedures that require termination language in
   all leases. The policy should include a requirement for written justification and
   approval for exceptions to this policy.

Cost and Income Analysis

Real Estate Specialists (RESs) are required to perform value analyses for leases of
$10,000 or more. RESs did not document or support the methodology used for
estimated variables included in their calculations of Fair Annual Rent on the Cost and
Income (C&I) Analysis. The estimates used in the calculations were subjective and
based on the RES’s experience in the region, and there were no requirements to
document or support their methodology.

Estimates based on prior RES experience increase the Postal Service’s risk of paying
above market rent because there is no assurance the RES is considering changes in
the real estate market. See Appendix B for our detailed analysis of this topic.

We recommend the Vice President, Facilities:

2. Require Real Estate Specialists to document and support their methodology when
   they establish estimated variables used in the calculation of Fair Annual Rent on the
   Cost and Income Analysis.

Negotiating with National Lessors

Facilities does not leverage its relationships with national lessors to negotiate lease
rates, terms, and conditions. According to Facilities management, leveraging the
volume of leases with national lessors to negotiate discounts is not necessary.
Furthermore, there is no Postal Service policy that requires Facilities management to
negotiate discounted lease rates with national lessors. We also found that leases with
national lessors are spread across the country and negotiated by multiple FSOs. In
addition, large national lessors develop subsidiaries that also lease property to the
Postal Service under different business names. As a result, lease terms and conditions
are not consistent, and the Postal Service is not realizing potential savings that could
result from negotiated volume discounts. Facilities management stated they were
implementing a National Lessors Program to address inconsistencies in lease
negotiations with national lessors. However, management has reduced the initial
staffing approved for the program by approximately 50 percent, resulting in
discontinuation of program implementation.




                                             2
Postal Service Lease Process                                                 SA-AR-09-006



See Appendix B for our detailed analysis of this topic.

We recommend the Vice President, Facilities:

3. Implement the National Lessors Program to ensure consistent lease terms and
   conditions with national lessors and include a process for negotiating volume
   discounts.

Internal Controls for Leases Under $25,000

RESs negotiated and approved leases in 15 of 87 sampled leases we reviewed. This
occurred because there is no requirement for independent review or approval of leases
under $25,000. Therefore, there is no segregation of duties and the Postal Service is
exposed to an increased risk of fraud and errors. See Appendix B for our detailed
analysis of this topic.

We recommend the Vice President, Facilities:

4. Implement internal controls, such as periodic reviews, for leases under $25,000, to
   ensure the integrity of the process and reduce risk exposure.

Management’s Comments

Management partially agreed with recommendation 1 and stated that termination
clauses are valuable tools that can offer the Postal Service flexibility. However, they
proposed issuing guidelines for determining the need for termination language in Level
1 and 2 leases, rather than instituting a national policy mandating documentation of
reasons for not including termination language in their renewals. Management agreed
with recommendation 2 indicating they would ensure adequate policies, procedures,
and criteria for performing value analysis for leases of $10,000 or more. In response to
recommendation 3, management agreed and proposed a re-examination of the National
Lessors program in 2010, and an effort to legally determine what can be done to
centrally manage each national lessor as a single entity. Lastly, management indicated
they would be implementing increased internal controls to reduce risk in response to
recommendation 4. In supplemental correspondence dated September 22, 2009,
management stated they would take corrective action for these recommendations in
November 2009 (recommendations 1 and 2), January 2010 (recommendation 3), and
March 2010 (recommendation 4). See Appendix C for management’s comments, in
their entirety.




                                            3
Postal Service Lease Process                                              SA-AR-09-006



Evaluation of Management’s Comments

The OIG considers management's comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report.
We appreciate the cooperation and courtesies provided by your staff. We appreciate
the cooperation and courtesies provided by your staff during the review. If you have
any questions, please contact Stephen Chow, Acting Director, Inspection Service and
Facilities, or me at (703) 248-2100.


   E-Signed by Office of Inspector General
     VERIFY authenticity with ApproveIt



Andrea L. Deadwyler
Acting Deputy Assistant Inspector General
 for Support Operations

Attachments

cc:    Steven Forte
       Steven C. Roth
       Michael R. New
       All Area FSO Managers
       Tim J. Perez
       Bill Harris




                                             4
Postal Service Lease Process                                                   SA-AR-09-006



                        APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Facilities is an enabling organization within the Postal Service whose primary mission is
to (1) provide quality real estate and facilities products and services to meet present and
future needs of Postal Service organizations and (2) realize optimum value from
facilities assets and transactions. Facilities is headquartered in Arlington, VA, and has
eight FSOs throughout the country. Facilities’ responsibilities include administration of
approximately 25,240 leases that represent approximately $973 million in annual rent.
The Postal Service has various levels of approval and decision analysis based on the
nature of the lease. The lease approval levels depend on the lease amount and
whether the Postal Service is entering into a new lease or exercising the renewal option
of a current lease.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether current lease processes and procedures are
economically beneficial to the Postal Service. The OIG contracted with Dr. Anthony
Yezer, Professor of Economics at George Washington University, to perform a
statistical analysis of Postal Service leases and identify leases that appear to be higher
than market rate. Dr. Yezer performed a statistical analysis of 25,240 Postal Service
leases. Dr. Yezer identified an initial set of 117 leases that appeared to be above rates
typically paid by the Postal Service in each of the nine Postal Service areas. We
judgmentally selected 87 of the 117 leases for our audit. Our original objective included
determining whether the Postal Service was paying above market lease rates based on
Dr. Yezer’s analysis. However, we segregated this phase of the audit and will complete
it in a subsequent audit.

We reviewed lease policies and procedures to determine whether the Postal Service
was complying with them and making timely lease decisions. We reviewed 87 leases to
determine whether the Postal Service leverages its business relationship with landlords
by requiring them to provide them with lease incentives that are economically beneficial.
The audit team also reviewed Fair Annual Rent calculations and corresponding lease
documentation as well as Postal Service lease data to determine if there were
justifications for the lease amounts. In addition, we interviewed personnel responsible
for entering into and renewing leases and reviewed applicable policies and procedures
governing the lease process.




                                             5
Postal Service Lease Process                                                                          SA-AR-09-006




Policies and procedures from the following Postal Service publications govern the lease
process:

        Handbook RE-12
        Administrative Support Manual (ASM) 133
        Handbook F-66A4
        Handbook F-66C5

We conducted this performance audit from November 2008 through August 2009 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management officials on August 6, 2009, and
included their comments where appropriate.

We used computer generated data from the Postal Service’s electronic Facilities
Management System (eFMS) and data provided by Dr. Yezer. We verified the validity
and reliability of eFMS and Dr. Yezer’s data by comparing it to actual lease
documentation.

PRIOR AUDIT COVERAGE

We did not identify any OIG or Government Accountability Office reports related to
Postal Service leases within the past 3 years.




2
   U.S. Postal Service Facilities Guide to Real Property Acquisitions and Related Services, Section 333.1, October
2008.
3
  Administrative Support Manual 13, Sections 512 and 513, Issue July 13, 1999, updated through January 1, 2009.
4
  Investment Policies and Procedures - Major Facilities, Chapters 2 and 3, January 2006.
5
  Field Investment Policies and Procedures, Chapters 2 and 3, March 2006, updated through April 13, 2006.




                                                         6
Postal Service Lease Process                                                                           SA-AR-09-006



                                APPENDIX B: DETAILED ANALYSIS

Termination Language

Sixty of the 87 Postal Service leases we reviewed did not include early termination
language. This occurred because Postal Service policy does not require termination
language in leases. Early termination options give the Postal Service the ability to
terminate leases if the current lease is not advantageous either operationally or
financially. Lessors typically insist on excluding termination clauses in leases because
they eliminate the guarantee of a long-term revenue stream. In addition, RESs exclude
termination language from leases if they believe inclusion will result in a higher rent.

The Optimization team, led by the Eastern Area FSO, has identified approximately 140
Level 36 leases that had termination clauses and is in the process of determining if
management can consolidate operations within these facilities. The Optimization team
has recognized the importance of including termination language in leases and the
Eastern Area FSO requires justification and approval for leases without termination
language.7

Cost and Income Analysis

Handbook RE 1, requires performance of a value analysis before every purchase, sale,
or lease of real property that is valued at $10,000 or more.

We reviewed cost and income analysis performed by the RESs for the 87 leases
included in our audit to determine Fair Annual Rent. Cost and income analyses typically
contain the following four cost approaches for calculating Fair Annual Rent:

    1) A Cost Approach that takes into account the estimated useful life of the building,
       the replacement cost of the building, land value and landlord expenses, and rates
       of return.

    2) A Present Annual Contract Rent Approach based on the current rent multiplied
       by a projected annual rent percentage increase and lease term.

    3) A Marshall and Swift (MS) Approach that uses national MS cost estimates to
       determine annual rent.

    4) A Comparable Area ZIP Code Average Approach that calculates the average
       rent for similar Postal Service facilities in the same ZIP Code.



6
  Leases with annual rent above $150,000.
7
  Although the Eastern Area FSO requires justification before a lease is approved without termination language, this
is not a national practice.




                                                          7
Postal Service Lease Process                                                 SA-AR-09-006



Our audit found that estimates RESs use in these valuations are primarily based on
their experience in the region. RESs did not document or support the methodology they
used to calculate Fair Annual Rent on the Cost and Income Analyses. In all of the cost
and income calculations reviewed in our sample there were one or more variables
critical to Fair Annual Rent determination that were primarily based on RES experience
with no support for the methodology. Furthermore, facilities does not have a policy that
requires them to document or support their methodology. Estimates based on prior
RES experience increase the Postal Service’s risk of paying above market rent because
there is no assurance that changes in the real estate market are being considered.

Negotiating with National Lessors

In our review of lease documentation, we concluded that Facilities does not leverage its
relationships with national lessors when negotiating lease rates and other terms and
conditions. National lessors are landlords who have multiple leases with the Postal
Service across the country. We identified two national lessors in our sample that,
combined, have approximately 961 active leases with the Postal Service. Per
discussion with a manager at one area FSO, lessors use the Postal Service's inability to
move to their advantage during lease negotiations.

We also found that leases with national lessors are spread across the country and are
negotiated by multiple FSOs. In addition, large national lessors develop subsidiaries
that also lease property to the Postal Service under different business names. As a
result, the Postal Service has not established consistency in the terms and conditions
included in leases with national lessors and lessors use favorable terms negotiated in
one area as leverage when negotiating with another. Facilities was in the process of
establishing a national lessors program intended to address this issue by creating
consistency in lease terms and conditions with national lessors; however, management
reduced initial staffing approved for the program by approximately 50 percent, resulting
in discontinuation of program implementation.

Internal Controls for Leases Under $25,000

We reviewed a sample of 87 leases and identified 38 that were under $25,000. Fifteen
of the 38 leases under $25,000 were negotiated and approved by the RES. According
to Standard Operating Procedures, the RES conducts lease negotiations with the lessor
and the Contracting Officer (CO) reviews and approves the signed lease. After the CO
approves the lease the district approves it. However, through interviews with FSO
management, we found that RESs typically have contracting authority for leases of up
to $25,000 annual rent. We also found in our review of lease approval documents that
some leases were negotiated and approved by the same individual. In one of the 15
exceptions noted, an RES negotiated and approved a lease that was identified as
above market on the lease negotiation summary. Because there was no segregation of
duties, the RES was the only person aware of this above market rent negotiation. A




                                            8
Postal Service Lease Process                                               SA-AR-09-006



weak control environment results in undetected errors, above market rents, and an
increased risk of fraud.

The U.S. Government Accountability Office’s Standards for Internal Control in the
Federal Government requires adequate segregation of duties related to approval
processes. The Eastern Area FSO developed local policies that do not allow a RES to
negotiate and approve the same lease; however, this is not the policy nationwide.
Facilities does not have a national policy that prohibits an RES from negotiating and
approving the same lease.




                                          9
Postal Service Lease Process                               SA-AR-09-006




                       APPENDIX C: MANAGEMENT’S COMMENTS




                                      10
Postal Service Lease Process        SA-AR-09-006




                               11
Postal Service Lease Process        SA-AR-09-006




                               12
Postal Service Lease Process        SA-AR-09-006




                               13
